           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


         FOLLOW UP ON THE
 SOCIAL SECURITY ADMINISTRATION’S
      PROCEDURES TO IDENTIFY
      REPRESENTATIVE PAYEES
         WHO ARE DECEASED

     October 2006       A-01-06-16054




 AUDIT REPORT




                    .
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                               SOCIAL SECURITY
MEMORANDUM

Date:      October 27, 2006                                                        Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Follow up on the Social Security Administration’s Procedures to Identify Representative
           Payees Who Are Deceased (A-01-06-16054)


           OBJECTIVE
           Our objective was to determine whether the Social Security Administration (SSA)
           identifies all cases in which a new representative payee is needed when a current
           payee dies.

           BACKGROUND
           Some individuals are not able to manage or direct the management of their finances
           because of their age or mental and/or physical impairments. For such individuals,
           Congress provided for payment to be made through representative payees who receive
           and manage the benefit payments for these beneficiaries and recipients. 1 When a
           representative payee dies, applicable regulations indicate that SSA will select a new
           payee. 2

           In our September 1999 report, The Social Security Administration’s Procedures to
           Identify Representative Payees Who Are Deceased, we determined that SSA's
           procedures did not ensure that new representative payees were selected when the
           current payees died. This situation occurred for several reasons, including:

                 •   incorrect death information was recorded on SSA’s Death Master File (DMF), 3

                 •   erroneous Social Security numbers (SSN) were recorded in SSA's data files for
                     representative payees, and

           1
            The Social Security Act §§ 205(j) and 1631(a)(2), 42 United States Code (U.S.C.) §§ 405(j) and
           1383(a)(2).
           2
               20 Code of Federal Regulations (C.F.R.) §§ 404.2050(d) and 416.650(d).
           3
               The DMF is SSA's national file of death information.
Page 2 - The Commissioner


      •   the Master Representative Payee File (MRPF) was incomplete with regard to
          representative payees for Supplemental Security Income (SSI) recipients. 4

(See Appendix B for the recommendations from our prior audit.)

Congress mandated that SSA establish a system of accountability monitoring of
representative payees and requested regular updates on the results of on-site and other
reviews of payees. 5 If payees die and are not replaced, SSA cannot be sure the funds
are being used to meet the beneficiaries’ needs, such as food, clothing, shelter, and
medical care. Additionally, if another individual acts as a de facto payee, that person is
not subject to SSA’s financial oversight and reporting responsibilities—such as reporting
events to SSA that may affect the individual’s entitlement or benefit payment amount. 6
In prior audits, we found instances where de facto payees did not properly perform their
responsibilities and other instances where there was a significant risk for the potential
misuse of benefits. (See Appendix C for prior audits on representative payees.)

To conduct our review, we identified—through computer matching of data from the
DMF, Master Beneficiary Record (MBR) and Supplemental Security Record (SSR)—
2,700 Old-Age, Survivors and Disability Insurance (OASDI) beneficiaries and 1,116 SSI
recipients with representative payees who were deceased per the DMF as of
January 2006. 7 From our match results, we reviewed 100 sample cases from the MBR
and 100 sample cases from the SSR. 8 Additionally, we reviewed 200 sampled SSI
records from a population of recipients with representative payees who appeared to be
missing in the MRPF. (See Appendix D for additional information on our audit scope
and sampling methodology.)




4
    The Agency is supposed to maintain a list of all payees in the MRPF.
5
 The Social Security Act §§ 205(j)(3)(A), 205(j)(6)(B), 1631(a)(2)(C)(i) and 1631(a)(2)(F)(iv) and (G)(ii),
42 U.S.C. §§ 405(j)(3)(A), 405(j)(6)(B), 1383(a)(2)(C)(i) and 1383(a)(2)(F)(iv) and (G)(ii).
6
    20 C.F.R. §§ 404.2035 and 416.635.
7
  Information about beneficiaries needed to administer the OASDI program resides on SSA's MBR file.
Information needed to administer the SSI program resides on SSA's SSR file. We had, in total,
287 beneficiaries who were in both the OASDI and SSI populations because they received benefits from
both programs and had payees who were deceased per SSA’s records.
8
 One beneficiary received both OASDI and SSI benefits and was randomly selected for both samples.
However, the dollar findings associated with this beneficiary in our samples and estimates are separate
and distinct because we sampled separately for each program.
Page 3 - The Commissioner


RESULTS OF REVIEW
SSA’s existing procedures still do not ensure that new representative payees are
selected when current payees die. However, SSA has taken steps to improve its
performance in this area and has plans to update its computer systems in March 2007
to further address this issue. Based on the results of our samples, we estimate that
2,025 deceased payees received $20.9 million in OASDI benefits and 837 deceased
payees received $4.6 million in SSI payments. 9

DECEASED REPRESENTATIVE PAYEES

Of the 100 sampled representative payees managing funds for OASDI beneficiaries:
•    75 were issued $773,170 in                                   Results of Review
     benefits to manage after their                            Deceased OASDI Payees
     dates of death; 10
                                                  75 Payees Received
•    14 were replaced with new                    Payments after Death          14 Payees Replaced
     payees and no benefits were                                                Timely Upon Death

     issued to the deceased payees;                                                       6 Payees
                                                                                          Replaced But
•    6 were replaced with new                                                             Had Incorrect
                                                                                          SSNs on the
     payees but their SSNs were                                                           MBR
     incorrectly recorded on the
                                                                                        5 Payees Had
     MBRs; 11 and                                                                       Erroneous
                                                                                        Death
•    5 were alive but had erroneous                                                     Information
     dates of death on the DMF. 12




9
  These payments were calculated from the date of the payee’s death through the date SSA replaced the
payee—or through September 2006, whichever was earlier. We estimate, based on our samples, that
the remaining 675 payees who received OASDI benefits and 279 payees who received SSI payments did
not receive benefits as payees after death. We sampled and reviewed separately for OASDI and SSI
representative payees and found that payments had been made to deceased payees under both
programs.
10
  As of October 2006, SSA had replaced all but 4 of the deceased payees with new payees, and these
4 beneficiaries have had their benefits suspended while new payees were being selected.
11
  When the new payees were selected after the existing payees died, the new payees’ names were
added to the MBR, but their SSNs were not updated. Projecting these 6 cases to the 2,700 OASDI
beneficiaries in our population, we estimate that 162 payees are recorded on the MBR with incorrect
SSNs.
12
  We previously reported on individuals who were alive but had dates of death on the DMF in OASDI
Benefits Paid to Deceased Auxiliary Beneficiaries (A-01-00-20043), June 2001.
Page 4 - The Commissioner


Of the 100 sampled representative payees managing funds for SSI recipients:
                       Results of Review                           •   75 were issued $414,791 in
                     Deceased SSI Payees                               SSI payments to manage
     75 Payees                                                         after their dates of death; 13
     Received                                  13 Payees
     Payments                                  Replaced            •   13 were replaced with new
     after Death                               Timely Upon
                                               Death
                                                                       payees and no SSI
                                                                       payments were issued to
                                                                       the deceased payees; and
                                                                   •   12 were alive but had
                                                 12 Payees Had
                                                 Erroneous Death       erroneous dates of death
                                                 Information           on the DMF.



Based on the 75 payees who received OASDI funds after death and the 75 payees
who received SSI funds after death, we estimate that 2,025 deceased payees (from our
population of 2,700) received $20.9 million in OASDI payments and 837 deceased
payees (from our population of 1,116) received $4.6 million in SSI payments. 14

The funds for beneficiaries in our population who have deceased payees may be at risk
for being misused. SSA referred one case to our Office of Investigations for possible
fraud and misuse of funds. 15

We also found instances where payees’ own benefits were terminated, but they
continued to be paid as representative payees for an extended period of time on behalf
other beneficiaries. For example,
•    One payee died on April 2, 2004, and her death was recorded on the DMF on
     April 23, 2004. SSA promptly stopped the payee’s benefits, and no payments were
     issued after April 2004. However, SSA continued to pay her $17,639 in benefits as
     a payee for 26 months after her death until—upon our request—SSA selected a new
     payee in July 2006. Despite payments being made to a deceased payee from
     April 2004 until July 2006, the beneficiary’s needs were met because her sister
     obtained a court order to access her bank account and used the funds to take care
     of her needs.



13
   As of October 2006, SSA had replaced all but 3 of the deceased payees with new payees, and these
3 recipients have had their benefits suspended while new payees were being selected.
14
  These estimates are based on our sample cases where deceased payees were issued benefits from
the date of their deaths until SSA updated the beneficiaries’ records—or through September 2006—
whichever was earlier.
15
  Based on feedback from SSA, it appeared that the beneficiaries’ needs were being met for the
remaining sample cases.
Page 5 - The Commissioner


•    Another payee died on January 6, 2004 and her death was recorded on the DMF on
     February 11, 2004. SSA promptly stopped the payee’s benefits, and no payments
     were issued after February 2004. However, SSA continued to pay her $16,770 in
     SSI payments as a payee for 29 months after her death until—upon our request—
     SSA selected a new payee in June 2006. In June 2006, the recipient provided
     documentation that she had been successfully managing her own funds since her
     payee’s death in January 2004. SSA determined that she was capable of handling
     her own finances and began paying her directly.

The following two tables show that, for our sample cases, SSA paid most deceased
payees more than three benefit checks after their dates of death. 16 Additionally, SSA
knew about most payees’ deaths for more than 3 months before taking action to replace
them with new payees.

                                  Payments Issued After Death
                                            Deceased OASDI           Deceased SSI
               Number of Payments
                                                Payees                  Payees
                    1 to 3                            11                     13
                    4 to 6                             4                       7
                    7 to 9                             9                       8
                    10 to 12                          14                       9
                    13 to 24                          26                     28
                    More than 24                      11                     10
                      Total                           75                     75




16
  Some benefits were suspended while the Agency looked for new payees. Although SSA's policy is to
pay benefits even when a payee is being sought, benefits can be suspended for a maximum of 1 month
while a new payee is being identified if direct payment to the incapable beneficiary would cause the
beneficiary substantial harm—meaning that direct receipt of funds by the beneficiary would cause
physical or mental injury to the beneficiary. SSA, POMS, GN 00504.105.
Page 6 - The Commissioner


                Time Span Between When SSA Recorded Payees’ Deaths and
                             When SSA Replaced the Payees
                                             Number of OASDI          Number of SSI
                   Length of Time
                                                Payees                  Payees
                     Less than 1 month                   4                      5
                     1 to 3 months                       6                      8
                     4 to 6 months                       5                      6
                     7 to 9 months                     11                       6
                     10 to 12 months                   13                      12
                     1 to 2 years                      26                      28
                     Over 2 years                      10                      10
                       Total                           75                      75

SSA plans to release a systems update in March 2007 that will send death information
received by SSA to the MBR and/or SSR and will automatically suspend any benefits
paid to deceased payees. These changes should assist the Agency in identifying and
replacing deceased payees timely.

CONSISTENCY OF DATA BETWEEN MRPF AND SSR

SSA’s MRPF does not contain all representative payees for SSI recipients. Based on
our match between payees listed on the SSR with SSA’s MRPF, we initially identified
cases where payees were recorded on the SSR but appeared to be omitted from the
MRPF. 17 We randomly selected 200 cases for review and found:

•    6 were not in the MRPF but were managing $3,746 in SSI payments for the month of
     April 2006. Projecting these results to the population, we estimate SSA paid
     approximately $23.7 million in annual SSI payments to about 3,157 payees who
     were not included in the MRPF.




17
  We also tested the completeness of the MBR representative payee data in the MRPF by randomly
sampling and reviewing 25 cases from our file of OASDI beneficiaries with representative payees on the
MBR who appeared to be omitted from the MRPF. For these cases, we found that the MBR payee data
only differed with MRPF due to timing differences between the dates our files were extracted.
Page 7 - The Commissioner


•    6 did not match because
     the payees’ SSNs on the                              Results of Review
     SSR were incorrect (even                Consistency of Data between MRPF and SSR
     though these payees                   188 Payees
     were in the MRPF under                in MRPF
     their correct SSNs).                  (94%)                            6 Payees not in
                                                                            MRPF (3%)
     Projecting these results
     to the 105,240 payees in
     our population, we
     estimate that about
     3,157 payees were                                                          6 Payees’ SSN
                                                                                Incorrect on the
     recorded on the SSR with                                                   SSR (3%)
     incorrect SSNs—which
     compromises SSA’s
     data.
•    188 were in the MRPF
     and had no problems. 18

CONCLUSION AND RECOMMENDATIONS
We acknowledge that SSA has taken steps to identify and replace representative
payees when they die and has plans for a systems upgrade next year. However, the
Agency’s current procedures and processes still do not ensure that new payees are
selected timely when the existing payees die. Even though SSA indicated to us that
most of our sampled beneficiaries and recipients had their needs met while their
benefits were being paid to deceased payees, the benefits for the remaining
beneficiaries and recipients in the population could be at risk for being misused and/or a
de facto payee may not be adhering to SSA’s guidelines for being a payee. 19




18
  These cases appeared in our match because we used a SSR file from June 2005 and a MRPF file from
January 2006. However, these payees were replaced by new payees during the lag time between our
two data files.
19
  As of September 2006—for the remaining 2,600 OASDI beneficiaries in the population—272 were no
longer receiving benefits, 1,267 had the payee replaced since June 2005, and 1,061 still appeared to
have deceased payees. For the remaining 1,016 SSI recipients in the population, 120 were no longer
receiving benefits, 511 had the payee replaced since June 2005, and 385 still appeared to have
deceased payees.
Page 8 - The Commissioner


Therefore, we recommend SSA:

1. Ensure the needs of the remaining beneficiaries and recipients in our population are
   being met and that all deceased payees are replaced with new payees.
2. Continue its efforts to upgrade systems to ensure deceased payees are identified
   and replaced in a timely manner.

AGENCY COMMENTS
SSA agreed with our recommendations. (See Appendix E.)




                                               Patrick P. O’Carroll, Jr.
                                       Appendices
APPENDIX A – Acronyms
APPENDIX B – Status of Recommendations from Prior Audit
APPENDIX C – Prior OIG Audits on Representative Payees
APPENDIX D – Scope, Sampling Methodology and Results
   Table 1:   Sample Results and Attribute Projections – MBR Match with DMF
   Table 2:   Sample Results and Dollar Projections – MBR Match with DMF
   Table 3:   Sample Results and Attribute Projections – SSR Match with DMF
   Table 4:   Sample Results and Dollar Projections – SSR Match with DMF
   Table 5:   Sample Results and Attribute Projections – MRPF Completeness
   Table 6:   Sample Results and Dollar Projections – MRPF Completeness

APPENDIX E – Agency Comments
APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                       Appendix A

Acronyms
C.F.R.   Code of Federal Regulations
DMF      Death Master File
MBR      Master Beneficiary Record
MRPF     Master Representative Payee File
OASDI    Old-Age, Survivors and Disability Insurance
SSA      Social Security Administration
SSI      Supplemental Security Income
SSN      Social Security Number
SSR      Supplemental Security Record
U.S.C.   United States Code
                                                                          Appendix B

Status of Recommendations from Prior Audit
In September 1999, the Office of the Inspector General issued a report The Social
Security Administration’s Procedures to Identify Representative Payees Who Are
Deceased (A-01-98-61009). This report included six recommendations to improve the
Social Security Administration’s (SSA) procedures for ensuring that representative
payees are replaced when they die. The table below lists the recommendations from
the prior report, SSA’s proposed actions at the time the report was issued, and the
current status as of June 2006.

Recommendation 1 – Routinely match the Death Master File (DMF) against the
Master Representative Payee File (MRPF) to identify deceased representative
payees and select new payees for all beneficiaries and/or recipients affected.
SSA’s Comments      SSA agreed with the intent of the recommendation. SSA believed that
and Actions from    actions envisioned in its Enumeration/Client 5-year Systems Plan would
September 1999      address the issue of better identifying payees who die. These actions
Report              included automatic checks of the MRPF when a report of death from a third
                    party is keyed into the DMF and new screens to reconcile discrepancies
                    between databases with a single input.
Current Condition   We estimated SSA paid approximately $20.8 million in Old-Age, Survivors
in 2006             and Disability Insurance (OASDI) benefits to about 2,025 deceased payees
                    and $4.6 million in Supplemental Security Income (SSI) payments to about
                    837 deceased payees. However, SSA plans to release a systems update
                    in March 2007.
Recommendation 2 – Issue a memorandum that emphasizes the correct
procedures to be performed by Field Office personnel to ensure that funds paid
to deceased representative payees are accounted for and transferred to the new
payees when replacing deceased payees. This memorandum should include
instructions for referring cases where fraud is suspected.
SSA’s Comments      SSA agreed and planned to issue appropriate reminders. An Emergency
and Actions from    Message (EM-99119) was released to all Field Offices on
September 1999      November 1, 1999, which instructed personnel on the correct procedure in
Report              handing conserved funds and ensuring that they were transferred to SSA or
                    to the new representative payee. It also addressed action to take where
                    misuse or fraud was suspected.
Current Condition   In our sample cases, SSA referred one case to our Office of Investigations
in 2006             for possible fraud and misuse of funds. For the remaining cases, it appears
                    that the beneficiaries’ needs were being met, even though the payees were
                    deceased.




                                             B-1
Recommendation 3 – Identify and correct instances in which erroneous dates of
death are contained on the representative payee Master Beneficiary Record
(MBR). These corrections should be made prior to updating the DMF by matching
against dates of death contained on MBR.
SSA’s Comments      SSA agreed and stated that it was aware of the need to reconcile all client
and Actions from    data, including death data, in its payment and client files. For this reason,
September 1999      an initiative was included in the Agency’s Enumeration/Client 5-year
Report              Systems Plan to address discrepancies. However, due to other priorities,
                    this initiative was not scheduled before August 2000.
Current Condition   We estimated that 135 OASDI payees and 134 SSI payees were
in 2006             erroneously listed as deceased on the DMF. SSA plans to release a
                    systems update in March 2007.
Recommendation 4 – Identify and correct instances where the Social Security
numbers (SSN) of representative payees on the MBR and the Supplemental
Security Records (SSR) are erroneous.
SSA’s Comments      SSA agreed that identification and clean-up of erroneous SSNs was
and Actions from    needed.
September 1999
Report
Current Condition   We estimated that 162 payees were recorded on the MBR with incorrect
in 2006             SSNs because SSA updated the payee name fields but did not update the
                    payee SSN fields on the MBR when new payees were selected. SSA plans
                    to release a systems update in March 2007.
Recommendation 5 – Implement an edit check to ensure that the representative
payee SSN is updated on the MBR whenever a new payee’s name is added.
SSA’s Comments      SSA agreed. Whenever a change of payee action is input through the
and Actions from    Representative Payee System, the new payee’s SSN is updated to the
September 1999      MBR as part of that transaction. The Terminating, Attainments, Transfers
Report              and Terminations system automatically changed the payment legend on
                    children’s payments to the surviving spouse in the same household when a
                    parent who was the payee died. This action occurred without updating the
                    surviving spouse’s SSN to the MBR as the payee’s SSN.
Current Condition   We estimated that 162 payees were recorded on the MBR with incorrect
in 2006             SSNs because SSA updated the payee name fields but did not update the
                    payee SSN fields on the MBR when new payees were selected. SSA plans
                    to release a systems update in March 2007.




                                               B-2
Recommendation 6 – Identify those individuals acting as representative payees
for SSI recipients who are not included in the MRPF and ensure their inclusion.
SSA’s            SSA agreed and was aware of this problem. The Agency planned to initiate
Comments and     a match after April 2000 to identify the extent of the problem and would
Actions from     decide how to proceed at that time.
September 1999
Report
Current          We estimated that SSA paid approximately $23.7 million in SSI payments
Condition in     annually to about 3,157 payees who were not included in the MRPF.
2006




                                          B-3
                                                                               Appendix C

Prior OIG Audits on Representative Payees
The Social Security Administration (SSA) requires representative payees to ensure the
beneficiaries they serve have their needs met. Payee responsibilities and requirements
include: 1
      •   Using the benefit payments only for the use and benefit of the beneficiary in a
          manner and for the purposes he or she determines, under SSA guidelines, to be
          in the best interests of the beneficiary;
      •   Notifying SSA of any event that will affect the amount of benefits the beneficiary
          receives or the right of the beneficiary to receive benefits;
      •   Submitting to SSA, upon request, a written report accounting for the benefits
          received.

The following table lists some of our audits on payees where we found indications that
beneficiaries’ needs might not be met.

                                           Date
               Report                                            Results of Review
                                          Issued
Scott County Community                   June 2006     This payee did not maintain adequate
Services Department, A Fee-                            documentation to support expenses.
for Service Representative
Payee for SSA
(A-07-06-16040)
Representative Payee Onsite              April 2006    The SSA Regional Office could improve
Reviews of State Institutions                          the effectiveness and efficiency of its
(A-09-06-26010)                                        onsite reviews of State institutions.
Concurrent Title II and                  April 2006    SSA needed to improve its controls to
Title XVI Beneficiaries                                prevent the direct payment of concurrent
Receiving Representative                               benefits to individuals with payees.
Payee and Direct Payments
(A-09-05-15144)
Representative Payees                     January      Many children in long-term foster care
Receiving Benefits for Children            2006        placement with Baltimore City
in Foster Care                                         Department of Social Services had
(A-13-05-15047)                                        payees other than the foster care
                                                       parents, and the Agency was unable to
                                                       ensure that the children’s needs were
                                                       being met.




1
    20 C.F.R. §§ 404.2035 and 416.635.


                                                 C-1
                                      Date
             Report                                          Results of Review
                                     Issued
Nation-wide Review of               July 2005     Of the 359 beneficiaries reviewed, we
Individual Representative                         were unable to determine if the needs of
Payees for SSA                                    3 beneficiaries were being met.
(A-13-05-25006)
Seattle Mental Health Institute      October      We could not determine whether this
– An Organizational                   2004        agency properly used benefits for the
Representative Payee for SSA                      beneficiaries’ use and benefit.
(A-09-04-14015)
Family Services, Inc., of            October      This payee did not ensure the benefits
Charleston, South Carolina, A         2004        were accounted for in accordance with
Fee-for Service                                   SSA’s policies and procedures.
Representative Payee for SSA
(A-13-04-14002)
The Effectiveness of Policies       September     SSA personnel were not effectively
and Procedures Used to                2004        implementing policies and procedures to
Identify Incarcerated                             identify incarcerated payees.
Representative Payees
(A-02-04-14031)
SSA’s Representative Payee          May 2004      SSA’s procedures did not ensure that all
Selection Process                                 beneficiaries who were incapable of
(A-01-04-14008)                                   managing their finances were paid
                                                  through payees.
Suitability of Individuals Acting    October      Beneficiaries determined to be incapable
as Representative Payees              2003        of managing his or her own funds were
(A-02-03-13032)                                   payees responsible for managing
                                                  another beneficiary’s funds.
The Connecticut Mental Health        August       This payee did not ensure the benefits
Center, Money Management              2003        were used and accounted for in
Program – An Organizational                       accordance with SSA’s policies and
Representative Payee for SSA                      procedures.
(A-13-03-23009)
Audit of the Community              July 2003     This payee did not ensure the benefits
Counseling Center of Chicago                      were used and accounted for in
– A Fee-for-Service                               accordance with SSA’s policies and
Representative Payee for SSA                      procedures.
(A-13-03-13002)
Audit of Key Point Health           May 2003      We could not determine whether this
Services, Inc. – An                               payee ensured the benefits were used
Organizational Representative                     and accounted for in accordance with
Payee for SSA                                     SSA’s policies and procedures.
(A-13-02-22014)
SSA’s Site Reviews of               April 2003    SSA’s site review methodology should
Representative Payees                             be modified to better ensure payees are
(A-13-01-11042)                                   using benefits only for the benefit of the
                                                  beneficiaries.


                                            C-2
                                    Date
           Report                                          Results of Review
                                   Issued
Analysis of Multiple, Unrelated    March         Some nursing homes were acting as de
Title II Payments to the Same      2003          facto payees for beneficiaries without SSA
Bank Account (A-15-01-11033)                     oversight.
Screening Representative           March         Based on our analysis, we estimated that
Payees for Fugitive Warrants       2003          about 3,145 fugitives served as payees
(A-01-02-12032)                                  and managed about $81.2 million in
                                                 benefits.
Financial-Related Audit of the    December       This payee did not ensure the benefits
Harris County Guardianship          2002         were used and accounted for in
Program – An Organizational                      accordance with SSA’s policies and
Representative Payee for SSA                     procedures.
(A-04-02-12020)




                                           C-3
                                                                        Appendix D

Scope, Sampling Methodology and Results
To accomplish our objective, we:
   Reviewed applicable sections of the Social Security Act and the Social Security
    Administration’s (SSA) regulations, rules, policies and procedures.
   Obtained data files of SSA’s Death Master File (DMF) showing deceased individuals
    as of September 2005.
   Obtained Master Beneficiary Records (MBR) for all Old-Age, Survivors and Disability
    Insurance (OASDI) beneficiaries and Supplemental Security Records (SSR) for all
    Supplemental Security Income (SSI) recipients who received benefits in June 2005.
   Obtained an extract from SSA’s Master Representative Payee File (MRPF) showing
    all active representative payees as of January 2006.
   Compared the Social Security numbers (SSN) on the MBR and SSR against SSNs
    in the DMF to identify potentially deceased representative payees.
   Randomly sampled and reviewed:
     100 cases from the 2,700 OASDI beneficiaries with representative payees who
      were deceased per the DMF.
     100 cases from the 1,116 SSI recipients with representative payees who were
      deceased per the DMF.
     200 cases from 105,240 SSI recipients with representative payees on the SSR
      who appeared not to be included in the MRPF.
   Tested the completeness of the MBR representative payee data in the MRPF by
    randomly sampling and reviewing 25 cases from the 359,612 OASDI beneficiaries
    with representative payees on the MBR who appeared not to be included in the
    MRPF. For these cases, we found that the MBR payee data only differed with
    MRPF due to timing differences between the dates our files were extracted.
   Referred cases where it appeared that deceased representative payees were still
    receiving benefits to SSA to: (a) take appropriate action to replace any deceased
    payees; (b) refer any instances of possible fraud to our Office of Investigations; and
    (c) ensure that the beneficiaries’ needs were being met even though their payees
    were deceased.
   Quantified the amount of benefits paid to deceased representative payees after their
    dates of death.
   Estimated the number of deceased OASDI and SSI representative payees and the
    amount of benefits SSA paid them based on our sample results. We also estimated
    the number of SSI recipients with representative payees who were not included in
    the MRPF and the amount of benefits SSA paid them annually.



                                            D-1
We conducted our audit between May and October 2006 in Boston, Massachusetts.
We found the data used for this audit were sufficiently reliable to meet our audit
objective. The entities audited were the Office of Retirement and Survivors Insurance
Systems and the Office of Disability and Supplemental Security Income Systems, both
under the Deputy Commissioner of Systems, and SSA’s Field Offices and Program
Service Centers under the Deputy Commissioner for Operations. We conducted our
audit in accordance with generally accepted government auditing standards.

SAMPLE RESULTS AND PROJECTIONS

                    Table 1: Sample Results and Attribute Projections
                                     MBR Match with DMF
             Population size                                   2,700
             Sample size                                         100
                 Estimated Deceased Payees Receiving OASDI Benefits
             Sample results                                       75
             Point estimate                                    2,025
              Projection lower limit                           1,810
              Projection upper limit                           2,210
                       Estimated Incorrect Payee SSNs on the MBR
             Sample results                                        6
             Point estimate                                      162
              Projection lower limit                              73
              Projection upper limit                             307
              Estimated Erroneous Payee Death Information on the DMF
             Sample results                                        5
             Point estimate                                      135
              Projection lower limit                              55
              Projection upper limit                             273
             Note: All projections are at the 90-percent confidence level.

                     Table 2: Sample Results and Dollar Projections
                                     MBR Match with DMF
             Population size                                  2,700
             Sample size                                        100
                   Estimated OASDI Benefits Paid to Deceased Payees
             Sample results                                $773,170
             Point estimate                             $20,875,601
              Projection lower limit                    $16,858,200
              Projection upper limit                    $24,893,001
             Note: All projections are at the 90-percent confidence level.




                                                D-2
       Table 3: Sample Results and Attribute Projections
                        SSR Match with DMF
Population size                                   1,116
Sample size                                         100
   Estimated Deceased Payees Who Received SSI Benefits
Sample results                                       75
Point estimate                                      837
 Projection lower limit                             751
 Projection upper limit                             911
 Estimated Erroneous Payee Death Information on the DMF
Sample results                                       12
Point estimate                                      134
 Projection lower limit                              81
 Projection upper limit                             205
Note: All projections are at the 90-percent confidence level.

        Table 4: Sample Results and Dollar Projections
                        SSR Match with DMF
Population size                                  1,116
Sample size                                        100
       Estimated SSI Benefits Paid to Deceased Payees
Sample results                                $414,791
Point estimate                              $4,629,066
 Projection lower limit                     $3,768,952
 Projection upper limit                     $5,489,180
Note: All projections are at the 90-percent confidence level.

       Table 5: Sample Results and Attribute Projections
                       MRPF Completeness
Population size                                105,240
Sample size                                         200
    Estimated SSI Recipients with Payees Not in the MRPF
Sample results                                        6
Point estimate                                    3,157
Projection lower limit                            1,385
Projection upper limit                            6,137
          Estimated Incorrect Payee SSNs on the SSR
Sample results                                        6
Point estimate                                    3,157
Projection lower limit                            1,385
Projection upper limit                            6,137
Note: All projections are at the 90-percent confidence level.




                                   D-3
                  Table 6: Sample Results and Dollar Projections
                              MRPF Completeness
Population size                                                   105,240
Sample size                                                           200
             Estimated Annual SSI Payments to Payees Not in the MRPF
Sample results - June 2006 SSI payments                            $3,746
Sample results – June 2006 SSI payments multiplied by
                                                                  $44,952
12 months
Point estimate                                                $23,653,742
Projection lower limit                                         $7,652,978
Projection upper limit                                        $39,654,507
          Note: All projections are at the 90-percent confidence level.




                                             D-4
                  Appendix E

Agency Comments
                                          SOCIAL SECURITY
MEMORANDUM


Date:       October 18, 2006                                                     Refer To:   S1J-3

To:         Patrick P. O'Carroll, Jr.
            Inspector General

From:       Larry W. Dye          /s/
            Chief of Staff

Subject:    Office of the Inspector General (OIG) Draft Report, "Follow up on the Social Security
            Administration’s Procedures to Identify Representative Payees Who Are Deceased” (A-01-06-
            16054)--INFORMATION

           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report content
           and recommendations are attached.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




                                                         E-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “FOLLOW UP ON THE SOCIAL SECURITY ADMINISTRATION’S
PROCEDURES TO IDENTIFY REPRESENTATIVE PAYEES WHO ARE DECEASED”
(A-01-06-16054)

Thank you for the opportunity to review and comment on the draft report. We appreciate your
conducting this follow up audit of the Social Security Administration’s (SSA) procedures to
identify representative payees (Rep Payees) who are deceased. The report acknowledges that we
have taken efforts to identify and replace Rep Payees when they die and that the Agency has
plans for a systems upgrade in 2007. However, the report concludes that our current procedures
and processes still do not ensure that new payees are selected timely when existing payees die.
Although we indicated that the needs of most of the beneficiaries and recipients sampled were
met while their benefits were being paid to deceased payees, the report concluded that benefits
for the remaining beneficiaries and recipients in the population could be at risk for being misused
and/or a de facto payee may not be adhering to SSA guidelines for being a payee.

Recommendation 1

SSA should ensure the needs of the remaining beneficiaries and recipients in OIG’s population
are being met and that all deceased payees are replaced with new payees.

Comment

We agree. It is vital to establish a new payee as quickly as possible upon the current payee’s
death. This is essential to ensure that the beneficiary's needs are met. To meet this
recommendation, we are forwarding the list of remaining beneficiaries to the appropriate
regional offices so that staff can review each case and take the necessary action.

Recommendation 2

SSA should continue its efforts to upgrade systems to ensure deceased payees are identified and
replaced in a timely manner.

Comment

We agree. We are currently working on the Death Alert Control and Update System (DACUS)
Release 2.0, which will route Electronic Death Record Reports to Title II (T2) and Title XVI
(T16) systems. This release is scheduled for implementation on
March 30, 2007.




                                               E-2
In March 2004, software was released that enabled DACUS to send termination records for
deceased individuals to the T2 and T16 systems. With this upcoming DACUS enhancement,
suspension records will be sent to the T2 and T16 systems for the beneficiaries/recipients for
whom the payee had served if the deceased is a Rep Payee.

The T2 and T16 systems will then send alerts to the appropriate field office to contact the
beneficiary/recipient to select a new rep payee.


[In addition to the items listed above, SSA also provided technical comments which
have been addressed, where appropriate, in this report.]




                                               E-3
                                                                      Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Judith Oliveira, Director, Boston Audit Division, (617) 565-1765

   David Mazzola, Audit Manager, (617) 565-1807


Acknowledgments

In addition to those named above:

   Phillip Hanvy, Senior Program Analyst

   Kevin Joyce, IT Specialist

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-01-06-16054.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
